No.

-

IN THE SUPREME COURT OF THE UNITED STATES
GUY HARVEY SPRUHAN,IV,

Petitioner,
V.

UNITED STATES

OF

AMERICA,

Respondent.

PROOF OF SERVICE
I, Christine M. Lee, Assistant Federal Defender, do declare that on this date
August 24, 2021, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.
The names and addresses of those served are as follows:

Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 24, 2021.
Respectfully submitted,
Guy Harvey Spruhan, IV
By Counsel
/s/ Christine M. Lee
Christine M. Lee
Counsel for Petitioner
Assistant Federal Public Defender
210 First Street, SW, Suite 400
Roanoke, VA 24011
(540) 777-0898
Christine_Lee@fd.org

